    April 5, 2006




 Oversight Review
Defense Hotline Complaint
Concerning Management Issues at
the New York Branch Office
(Report No. D-2006-6-003)




               Department of Defense
           Office of the Inspector General
 Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Office of Audit Policy and Oversight at (703) 604-8760 (DSN 664-8760) or fax
  (703) 604-9808.

  Suggestions for Future Reviews

  To suggest ideas for or to request future reviews, contact the Office of Audit Policy
  and Oversight at (703) 604-8760 (DSN 664-8760) or fax (703) 604-9808. Ideas
  and requests can also be mailed to:

                                      OAIG-APO
                        Department of Defense Inspector General
                          400 Army Navy Drive (Room 1015)
                              Arlington, VA 22202-4704




Acronyms

AICPA                 American Institute of Certified Public Accountants
APPS                  Audit Planning and Performance System
CAM                   Contract Audit Manual
DCAA                  Defense Contract Audit Agency
DMIS                  Defense Contract Audit Agency Management Information System
DoDIG                 Department of Defense Office of the Inspector General
GAS                   Government Auditing Standards
GSA                   General Services Administration
ISA                   Interservice Support Agreement
JTR                   Joint Travel Regulations
MOA                   Memorandum of Agreement
NYBO                  New York Branch Office
PDS                   Permanent Duty Station
RAM                   Regional Audit Manager
USACE                 U.S. Army Corps of Engineers
            Office of the Inspector General of the Department of Defense

Report No. D-2006-6-003                                             April 5, 2006
(Project No. D2004-DIP0AC-0038)

             Hotline Complaint Concerning Management Issues
                   Regarding the New York Branch Office

                                  Executive Summary
Who Should Read this Report and Why? Defense Contract Audit Agency
management, U.S. Army Corps of Engineers contracting officers and internal review
management who use the Defense Contract Audit Agency reports, and Under Secretary
of Defense (Comptroller)/Chief Financial Officer who the Defense Contract Audit
Agency reports to.

Background. We conducted this review in response to a Defense Hotline complaint
containing four allegations regarding management actions by the Defense Contract Audit
Agency at the New York Branch Office. We previously issued two reports addressing
allegations regarding this office: Report No. D2004-6-010, “Administrative Inquiry into
Allegations Concerning the Defense Contract Audit Agency Alteration of Working
Papers at the New York Branch Office,” dated October 6, 2003, and Report No. D2005-
6-002, “Congressional Inquiry Into Allegations Concerning an Abusive Work
Environment at the Defense Contract Audit Agency New York Branch Office,” dated
March 8, 2005.

Results: Of four allegations, two were partially substantiated and two were not
substantiated. The allegation that:

   •   Defense Contract Audit Agency auditors performing work requested by the U.S.
       Army Corps of Engineers on the World Trade Center cleanup did not comply
       with the Government Auditing Standards or audit policies and procedures was
       partially substantiated;
   •   the Northeastern region inappropriately filled a permanent GS-13 supervisory
       auditor position at the branch office with a one-year lateral transfer of a GS-13
       technical specialist and then inappropriately backfilled the temporarily vacant GS-
       13 technical specialist position so that the temporary supervisory auditor would
       have a position to return to was not substantiated;
   •   the Northeastern region wasted Government funds when it: (i) established the
       Garden City site as a Permanent Duty Station; (ii) assigned employees to the work
       site; (iii) paid the assigned employees local travel costs; and (iv) allowed them to
       travel on Government time to Manhattan where the branch office and contractors
       were located, was partially substantiated; and
   •   a Defense Contract Audit Agency supervisory auditor inappropriately charged
       time and attendance hours on timesheets was not substantiated.

Although the allegation that the auditors did not use automated working papers and
supervision was not properly documented was partially substantiated, the work
performed was adequately documented and supervised and supported the information
provided in the memorandums and summary report. However, the Defense Contract
Audit Agency should revise its Memorandum of Agreement with the U.S. Army Corps of
Engineers and existing audit guidance to clarify what non-audit and audit services might
be provided in emergency or exigent situations. We also could not conclusively
determine whether the Northeastern region management wasted Government funds when
it established the Garden City office because they did not adequately document their
decision-making process for setting up it up. Therefore, the Northeastern region should
re-evaluate the assignment of contractors to the Garden City suboffice and document the
considerations for its continued existence. Finally, the Northeastern region analyzed and
applied the employee survey results for establishing local commuting radius in a manner
inconsistent with the spirit and intent of the Joint Travel Regulations. They should
establish separate local commuting areas for the major metropolitan areas in the region.

Management Comments and Department of Defense Office of the Inspector General
Response: The Assistant Director, Policy and Plans, Defense Contract Audit Agency,
nonconcurred with the recommendation to revise its agreement because the type of
needed audit services for emergency situations are unknown and undefined until they
occur. He partially concurred with revising its existing audit guidance on providing audit
and non-audit services in emergency situations for the same reason. He proposed
revising the existing guidance to require auditors to issue an acknowledgement letter
identifying the audit services and related reporting requirements in such situations. We
disagree that such services are completely unknown and undefined based on the
Agency’s experience with catastrophes such as hurricanes. Therefore, we requested that
he reconsider his position.

He also nonconcurred with our recommendations to establish policies and procedures
specifying criteria and documentation requirements for various types of permanent duty
stations and the assignment of personnel because he believed that: (1) the report did not
identify the need for additional policies and procedures, and (2) the Northeastern region
management articulated a sound business position and exercised its authority in carrying
out its mission. The Assistant Director did agree to clarify existing guidance to state that
permanent duty stations should be established based on mission requirements. We
request that he reconsider his position because he misinterpreted the report regarding our
conclusion on the appropriateness of establishing the Garden City office. We did not
conclude that the Northeastern region management acted outside of its authority;
however, we could not conclusively determine that they made the best decisions because
of the lack of proper documentation. Proper documentation is important to
management’s ability to safeguard Government assets against waste, loss, unauthorized
use, or misappropriation.




                                             ii
The Regional Director, Northeastern Region, partially concurred with the
recommendation to re-evaluate the assignment of contractors to the Garden City office
and document the continued need for it. He stated that the report and the analysis we
performed supported the existence of the office, but the Northeastern region management
was reviewing the workload of the New York area offices. He also partially concurred
with the recommendation to establish local commuting areas for various major
metropolitan areas. He agreed to address the issue of the local commuting area in June
2007 when the current collective bargaining agreement is open for renegotiation. We
accepted the proposed alternative actions as meeting the intent of the recommendations.

See the Findings section of the report for a discussion of management comments and the
Management Comments section for the complete text.




                                          iii
Table of Contents
Executive Summary                                             i

Background                                                    1

Objectives                                                    1

Findings on Allegations
     Allegation 1:   World Trade Center Cleanup Audit Work    2
     Allegation 2:   Temporary Promotions                     6
     Allegation 3:   Garden City Office                       8
     Allegation 4:   Time and Attendance Charges             14

Appendixes
     A.      Scope and Methodology                           16
     B.      Report Distribution                             17

Management Comments
     Defense Contract Audit Agency                           19
Background. The Defense Contract Audit Agency (DCAA) performs contract audits
and provides financial advisory services for DoD. DCAA audits help determine the
adequacy of a contractor’s estimating, budgeting, billing, and accounting systems;
compliance with the cost accounting standards and disclosed accounting practices; and
the allowability of incurred costs charged to the Government in accordance with the
Federal Acquisition Regulations and the Defense Federal Acquisition Supplement.

We previously issued two reports addressing allegations regarding the New York Branch
Office (NYBO): Report No. D2004-6-010, “Administrative Inquiry into Allegations
Concerning the Defense Contract Audit Agency Alteration of Working Papers at the New
York Branch Office,” dated October 6, 2003, and Report No. D2005-6-002,
“Congressional Inquiry Into Allegations Concerning an Abusive Work Environment at
the Defense Contract Audit Agency New York Branch Office,” dated March 8, 2005.

Review Objective. The objective was to determine the validity of the Defense
Hotline allegations. See Appendix A for details of our scope and methodology.




                                           1
FINDINGS REGARDING ALLEGATIONS
Allegation 1: DCAA auditors performing work requested by the U.S. Army Corps
of Engineers (USACE) on the World Trade Center cleanup did not comply with the
Government Auditing Standards (GAS) or DCAA audit policies and procedures.
The allegation was partially substantiated.

Compliance with DCAA Policies and Procedures and GAS. The complainant
specifically alleged that the audit staff performing work on the World Trade Center
cleanup effort did not have a set of working papers or audit program in the Audit
Planning and Performance System (APPS) 1 format and did not document supervisory
guidance or direction as required. The allegation was partially substantiated. The NYBO
auditors performed both non-audit services and an agreed-upon procedures engagement
for the USACE under one audit assignment. The allegation was not substantiated as it
related to the non-audit services performed, but it was substantiated for the agreed-upon
procedures engagement they performed. However, the work performed and documented
for the agreed-upon procedures engagement contained evidence of supervisory
involvement and was sufficient to support the information provided to the USACE in the
summary report and memorandums.

Requirements for Performing Non-Audit Services. The allegation was not
substantiated because neither the applicable GAS nor the DCAA audit policies in effect
in 2001 and 2002 addressed standards for performing non-audit services. The DCAA
Contract Audit Manual (CAM) did address the general use of APPS by specifying that
auditors should use APPS and a standardized working paper format for all audit
assignments; however, it also allowed an auditor to use professional judgment in working
paper preparation because conditions and circumstances could vary with each audit.

        Performance of Non-Audit Services. The NYBO auditors did not set up an
audit assignment in APPS for the non-audit services performed; therefore, they did not
use the standard audit working paper structure or format that APPS provided. The
auditors had an overall risk assessment that provided a framework for performing the
non-audit services; however, they did not have a written review plan. The use of APPS
would have provided a standard format for supervisory guidance and review, but the
working paper documentation contained evidence of active supervisory involvement.
Although the NYBO auditors could have used APPS, the conditions that they
encountered in performing the non-audit services justified the decision not to.

Starting in October 2001, the NYBO auditors performed site monitoring and labor and
equipment verifications at the Staten Island landfill. They documented their work on
note pads because they did not have access to computers; however, they eventually
transferred some work to an electronic format. To document the results of their work,
they issued “white papers” to the USACE that conveyed potential problems on a real time
1
 APPS is the DCAA electronic working paper software which includes a standard working paper index
and set up, standard working paper formats including the incorporation of audit program steps, and
documentation of required supervisory review.


                                                  2
basis. The USACE used the “white papers” to improve the efficiency of landfill
operations. For instance, DCAA identified a negotiated rate of $10.06 per hour for using
personal vehicles at the landfill. DCAA recommended that the USACE have the
contractor identify the need for personal vehicles at the site and, when necessary, lease a
vehicle instead of using personally owned vehicles. DCAA estimated a potential savings
of approximately $50,000 on the four vehicles identified. The “white papers” served as
minimal documentation for the work that DCAA performed.

Revised GAS. In 2003, the GAS were revised to specify that audit organizations may
also provide non-audit services that are not covered by GAS. The GAS do not cover
non-audit services since such services are not audits or attestation engagements.
However, auditors and audit organizations providing non-audit services need to ensure
that providing such services does not impair their independence to provide audit services.
DCAA has issued guidance on maintaining auditor independence.

Requirements for Performing Agreed-Upon Procedures Engagement. The allegation
regarding use of APPS working papers, including an audit program, and documentation
of supervisory guidance was substantiated for the agreed-upon procedures engagement
that the NYBO auditors performed. The NYBO auditors reviewed contractor billings as
an agreed-upon procedures engagement and issued memorandums to the USACE on the
results. They also issued a final summary audit report dated June 16, 2003, on all the
work performed. The work performed as an agreed-upon procedures engagement was
subject to the applicable GAS and DCAA audit policies and procedures. The GAS and
the CAM incorporated the American Institute of Certified Public Accountants (AICPA)
standards for agreed-upon procedures that required adequate planning and supervision of
any assistants, and sufficient evidence providing a reasonable basis for conclusions
expressed in the report. DCAA guidance also specified that a written audit plan was
required and provided specific steps the supervisory auditor had to document.

       Compliance with Standards. The NYBO auditors did not comply with all the
fieldwork and reporting standards for agreed-upon procedure engagements. They
inappropriately relied on a risk assessment done for the non-audit services provided
because it did not specifically apply to the work performed as agreed-upon procedures
engagements. The auditors did not document any other audit planning. The procedures
performed could have represented the planned audit steps; however, some procedures
were vague and not based on specific measurable criteria as required by the standards.
The agreed-upon procedures documentation substantiated the findings and conclusions in
the memorandums and final summary audit report, thereby meeting the evidence
standards. Finally, the auditors made recommendations in the audit report that were
beyond the scope of an agreed-upon procedures engagement.

        Compliance with CAM APPS Requirement. For the agreed-upon procedures
engagement, the auditors put some working papers in APPS. However, because of the
voluminous nature of hard copy documentation, a large number of hard copy files still
existed. The auditors used APPS as an electronic filing cabinet to organize the working
papers, and therefore, did not use the standard working paper format, such as the standard


                                             3
indexing and file naming convention. The auditors also did not use the standard APPS
format to generate an audit program or to document supervisory guidance and review.

        Supervision of Agreed-Upon Procedures Engagement. Once the auditors
began performing an agreed-upon procedures engagement, the supervisory auditor was
required to supervise them and document the supervision in compliance with both the
AICPA standards and DCAA policies and procedures. The AICPA standards require
only that assistants should be supervised. DCAA policies and procedures, specifically,
CAM, Chapter 2-302.3, “Supervision,” Chapter 2-503, “Supervision,” and Chapter 4-
403, “Format and Contents of the Working Papers,” require the supervisory auditor, at a
minimum, to initial and date the lead working papers, the top page of the summary
working paper section, the top page of the risk assessment/preliminary review section,
and the top page of the draft audit report to indicate final review and approval of the
work. The agreed-upon procedures working papers did not contain the required
supervisory auditor signoffs but did contain limited evidence of supervisory involvement.
For instance, the auditors documented that the supervisory auditor attended various
meetings with the USACE where contractor billing issues were discussed and
participated with them in onsite verification work. The supervisory auditor stated that
they also reviewed the supporting documentation for the contractor billings and was
onsite when the auditors performed some of the work. In addition, the lead working
papers referenced the memorandums, which the branch manager signed. Therefore, even
though the documented supervision did not comply with DCAA policy, the supervisors
performed sufficient supervision considering the auditors’ experience.

        Action Taken on Agreed-Upon Procedures Deficiencies. DoD Inspector
General Report No. D2004-6-001, “Defense Contract Audit Agency Quality Assurance
Review of ‘All Other’ Audits,” dated October 21, 2003, identified similar deficiencies in
how DCAA performed and reported on agreed-upon procedures. DCAA concurred with
the deficiencies and issued additional guidance and training on July 7, 2004.

Agreement between USACE and DCAA. The existing August 1996 Memorandum of
Agreement (MOA) between DCAA and the USACE covers instances when DCAA will
provide the USACE with its normal contract audit services for either civilian or military
projects. The MOA and CAM 15-118(b) also state that DCAA will provide contract
audit support to USACE contracting personnel during civil and military emergencies,
disasters, and special operations; however, neither define what services constitute audit
support. DCAA has provided the USACE with audit services in emergency situations
such as hurricane relief efforts and currently is providing advisory and audit services for
Hurricane Katrina. Therefore, since the advisory and audit services provided during
emergency or exigent circumstances can be substantially different from the routine
DCAA services outlined in the existing MOA, DCAA and the USACE should negotiate a
separate addendum to the MOA to cover what additional advisory or audit services
DCAA will provide. The addendum should also include the required documentation to
support the work and the various reports, such as a final summary report, that the USACE
either expects or may request.



                                            4
Conclusion: The allegation was partially substantiated. The NYBO auditors did not use
APPS to perform the non-audit services requested. The work they were performing and
the unusual field conditions associated with the work site justified not using APPS. For
the agreed-upon procedures engagement, the NYBO auditors made an effort to put the
electronic working papers into APPS. Although the NYBO auditors did not use APPS as
intended and did not comply with all the applicable fieldwork and reporting standards for
the agreed-upon procedures engagement, the work they performed and documented was
sufficient to support the information provided to the USACE in the summary report and
memorandums. In addition, supervision was not documented for the agreed-upon
procedures engagement in accordance with DCAA policy; however, the working papers
contained evidence of supervisory involvement. We considered this involvement
adequate to meet GAS requirements.

Recommendations, Management Comments, and Department of
Defense (DoDIG) Response

Recommendations:

       We recommend that the Director, Defense Contract Audit Agency:

              1. A. Coordinate with the U.S. Army Corps of Engineers on an
       addendum to the existing Memorandum of Agreement defining the non-
       audit and audit services that the Defense Contract Audit Agency may
       provide, including reporting requirements, in emergency and exigent
       circumstances. and

DCAA Headquarters Comments: DCAA nonconcurred with the recommendation.
They disagreed because: (i) the MOA already contains a provision for providing audit
services in emergency and exigent circumstances; (ii) the type of needed audit services
are unknown and not defined prior to the occurrence of the emergency situation; (iii)
cognizant Government personnel assess the needed audit requirements and request the
appropriate audit services based on the specific situation; and (iv) DCAA formally
acknowledges the requested audit services as required by existing DCAA policy and
procedures. Therefore, DCAA does not believe that additional Government resources
should be used to negotiate an addendum to the existing MOA.

DoDIG Response: We request that DCAA reconsider its position. We agree that the
exact audit services for emergency and exigent circumstances are unknown and
undefined until they occur. However, DCAA has a history of providing contract audit
services to the USACE after catastrophes, generally after a hurricane. The initial
assessment of the DCAA services to be provided in support of the USACE during the
World Trade Center Clean-up was based on these experiences. The same general
taskings seem to be involved: billing or invoicing reviews or issues, physical
observations of contractor or subcontractor work performance; financial advisory
services or analytical reviews to assist contracting officials during negotiations of
contract or task order pricing; or reviews of initial contract terms and conditions and
contractor management procedures. In some cases, DCAA may also have prior


                                            5
experience with the contractors or subcontractors. Therefore, DCAA and the USACE
can agree that certain audit or advisory services will normally be needed. This agreement
would not preclude the USACE from requesting additional services or DCAA from
suggesting or providing different audit or advisory services.

More importantly, defining the type of audit or advisory services to be provided includes
how the services will be performed. For certain taskings such as physical observation of
contractor or subcontractor personnel or equipment, DCAA could decide to perform the
work either in accordance with GAS or not. DCAA and USACE management should
make this important distinction at the start. In addition, the reporting requirements
should also be understood by both parties. While DCAA could report on audit work
performed in accordance with GAS either by also following the GAS reporting
requirements or not, they could not report work that was not done in accordance with
GAS by citing GAS. When emergency situations occur, it is important that these reviews
are defined. Therefore, DCAA and the USACE should determine when it is acceptable
or expected that DCAA-provided audit services will not comply with GAS versus when
the audit services must comply with GAS.

              1. B. Clarify existing guidance in the Defense Contract Audit Agency
       Contract Audit Manual, Chapter 15-118(b) on providing contract audit
       support to contracting officials of the U.S. Army Corps of Engineers to
       explain what non-audit, advisory, or audit services can be provided as
       contract audit support.

DCAA Headquarters Comments: DCAA partially concurred with the
recommendation agreeing to revise the pertinent CAM section to require auditors to
issue an acknowledgement letter identifying the audit services and relating reporting
requirements that would be provided in emergency and exigent situations once the
services have been defined and coordinated with the USACE.

DoDIG Response: We accept the proposed DCAA action as meeting the intent of the
recommendation. However, the revised CAM guidance should instruct the auditors to
clearly state in the acknowledgement letter what DCAA services, including reporting
products, will comply with GAS and what DCAA services will not be performed in
accordance with GAS.

Allegation 2: The Northeastern region inappropriately filled a permanent GS-13
supervisory auditor position at the NYBO with a one-year lateral transfer of a GS-
13 technical specialist. The region then inappropriately backfilled the temporarily
vacant GS-13 technical specialist position so that the temporary supervisory auditor
would have a position to return to. The allegation was not substantiated.

Selection Process. On November 27, 2001, DCAA issued Job Opportunity
Announcement No. 2002-0006 for a GS-511-13 supervisory auditor at the New York
Branch Office. The best qualified list contained four names, three non-competitive re-
promotion candidates and one promotion candidate. On January 1, 2002, DCAA offered


                                            6
the job to the promotion candidate who both the Regional Audit Manager (RAM) and the
New York Branch Manager recommended. The promotion candidate declined the offer.
DCAA then offered the job on January 14, 2002, to the non-competitive candidate
determined to be the best qualified of the non-competitive group. However, DCAA
subsequently withdrew the offer on January 17, 2002, when the non-competitive
candidate accepted an offer for a GS-511-13 technical specialist position at another
office. DCAA eventually filled the position when, on January 17, 2002, a NYBO
technical specialist volunteered to accept a one-year temporary lateral reassignment to the
supervisory auditor position to assist management. The Northeastern Regional Director
approved the request for reassignment and DCAA cancelled the job announcement on
January 17, 2002.

        Management Decision. The decision not to offer the job to the other re-
promotion candidates was in accordance with the Personnel Management Manual
(DCAAM 1400.1), Chapter 36, “Merit Promotion,” Section 2-10 (e), “Referral of Best
Qualified Candidates,” which allowed selecting officials to select any or none of the
candidates referred. The Regional Director’s decision to approve the request for
reassignment was in accordance with the DCAAM 1400.1, Chapter 37, “Auditor
Rotation, Details, and Reassignments,” Section 3-1, “Management-Initiated
Reassignments,” which permitted management to direct reassignments of employees to
further the DCAA mission. In addition, Section 3–2 (a) allowed an employee, the
technical specialist in this case, to request reassignment to enhance their career or for
personal reasons.

Temporary Promotion to Technical Specialist Position. The lateral transfer of an
existing GS-511-13 technical specialist to the supervisory auditor position then required
DCAA to fill the technical specialist position that the temporary supervisory auditor
vacated. On January 18, 2002, DCAA issued Job Opportunity Announcement No. 2002-
0014 for a temporary, not-to-exceed one-year GS-511-13 technical specialist position at
the NYBO. This was in accordance with DCAAM 1400.1, Chapter 36, “Merit
Promotion,” Section 4-1 (b), “Temporary Promotions,” which required that DCAA use
competitive promotion procedures when a temporary promotion would exceed 120 days.
Also, Section 4-1 (a) provided that the most appropriate means of meeting a situation
requiring temporary services of 60 days or more, such as when an employee had to
perform the duties of another employee during an extended absence, was generally to
temporarily promote an employee to the higher grade position.

DCAA management complied with DCAAM 1400.1, Chapter 36, by announcing the
technical specialist position through a job opportunity announcement, obtaining a
Referral and Selection Register best qualified list, and making a selection. Northeastern
region management informed the selected employee of the conditions of the temporary
promotion and that they would return to their former position, grade, and step. The
temporary promotion was from February 24, 2002, to February 22, 2003. Both the
temporary NYBO supervisory auditor and the temporary technical specialist returned to
their original positions on February 23, 2003.



                                             7
Conclusion: The Northeastern region management decision to temporarily fill the
supervisory position and, as a result, the technical specialist position was within their
authority and in compliance with DCAA Personnel Management Manual. Therefore, the
allegation was not substantiated.

Allegation 3: The Northeastern region wasted Government funds when it
established the Garden City site as a Permanent Duty Station (PDS) and assigned
NYBO employees to the work site. The Northeastern region paid the assigned
employees local travel costs and allowed them to travel on Government time to
Manhattan where the NYBO and contractors were located. The allegation was
partially substantiated.

Downsizing the Northeastern Region. From FYs 1991 to 2004, to adjust to the
changing contractor environment, DCAA downsized the Northeastern region by
eliminating 16 offices and more than 400 jobs. The number of audit offices in the New
York City and Long Island areas went from five to two. The three closed audit offices
were on Long Island resulting in the shifting of audit work to the NYBO, located in
Manhattan, and the newly formed Long Island Branch Office on the eastern tip of Long
Island. DCAA reassigned some auditors who lived on Long Island and had previously
worked there to the NYBO, thereby, causing them to face longer commutes into New
York City.

New York Branch Office. The NYBO did not have the extra office space needed to
accommodate the additional employees. Northeastern region management was also
dealing with morale issues among the reassigned employees. Management considered
either obtaining additional office space in the existing NYBO location or finding new
space on Long Island.

DCAA Management Decisions Regarding Garden City Office. Northeastern region
and headquarters management made various decisions regarding the Garden City office
space with few policies or procedures specifying appropriate criteria to consider during
the decision-making process or requiring adequate documentation of the factors
considered during the process. The lack of policies and procedures and documentation
supporting management decisions is an internal control issue.

         Comparison of Lease Costs for Two Options. Based on available leasing cost
information, the Northeastern region management decision to lease the Garden City
office space was the least costly alternative considered. However, because the
Northeastern region management did not properly document the various cost
considerations including potential travel costs, we were unable to determine whether
leasing the Garden City site was appropriate based on the information actually considered
at the time. Northeastern region management told us that they considered both the cost
per square foot and auditor travel expenses when comparing the two options to obtain the
1200 square feet of additional office space. Although Northeastern region management
discussed the options, they did not document the basis for making their decision. For
instance, they could not provide the auditor travel expense information used in making


                                            8
the decision. The Facilities Manager, Northeastern region, also discussed the potential
increase in lease costs, should additional space be required for the NYBO, but did not
obtain written quotes from the General Services Administration (GSA). The yearly lease
costs for the Garden City site averaged $17.95 per square foot for an average annual cost
of $21,540. The NYBO yearly lease costs averaged $25 per square foot for an average
annual cost of $30,000. Even if the NYBO average rate per square foot remained
unchanged, the cost of the additional 1200 square feet would have been $8,460 per year
higher than comparable space at the Garden City site. However, since the GSA, Realty
Services Division, handled the NYBO leased space, when an existing tenant needed
additional space, the square foot rate for both the existing and the additional space would
be re-calculated to factor in the current square foot rate effectively increasing the cost per
square foot for all leased space.

         Establishment of the Garden City Work Site. Northeastern region
management told us that they decided to lease space on Long Island because it would not
only cost less than adding to the NYBO office space but would also improve employee
morale for those employees living on Long Island. Furthermore, their main customer, the
Defense Contract Management Agency, was located in Garden City. In September 2000,
Northeastern region management signed a 4-year lease effective October 1, 2000, for the
Garden City space. Northeastern region management initially discussed the Garden City
site as a telecommuting center, but the RAM ultimately established the site as a PDS. In
January 2001, the Northeastern region assigned eight NYBO employees to Garden City
as their PDS. The Office of Personnel Management allowed the employing agency to
determine an employee’s PDS; however, neither the DCAA Organization Manual
(DCAAM 5110.1) nor any other DCAA policy specified the criteria managers should use
to establish a PDS or assign employees to one.

         Interservice Support Agreement. The Northeastern region used an Interservice
Support Agreement (ISA) between DCAA and the U.S. Marine Corps to pay the rent for
the Garden City space. The Northeastern region had nine ISAs in use during FY 2004 for
a total cost of $905,253. The Garden City ISA totaled $17,071, or 2 percent of the
regional total. The majority of the ISAs were for office space in overseas locations. The
Regional Director or the Regional Resources Manager signed the majority of the ISAs.
Neither DCAA headquarters nor the Northeastern region had any guidelines regarding
ISA usage.

        Frame Relay Systems. In December 2000, the Northeastern region requested a
frame-relay system for the Garden City office. A frame-relay is a local-area network
system that allows auditors to access the DCAA intranet when they log on without
dialing up the connection. DCAA headquarters paid the $5,000 to $6,000 cost for each
system. However, in FY 2000, DCAA headquarters had no written process or set criteria
for approving frame-relay service requests. By May 2002, DCAA had installed the frame
relay service at the Garden City office. In November 2003, the Director, DCAA, detailed
a process and set a minimum criteria to ensure that only offices expected to remain at the




                                              9
same physical location for at least a year and with a staff of four or more non-mobile 2
employees would be approved for the service. In April 2005, DCAA headquarters
revised the criteria requiring employees to spend only the preponderance of their time at
the location instead of being non-mobile. With the revision, the Garden City office met
the April 2005 criteria.

Establishment of the Garden City Suboffice. In August 2003, 2 years and 8 months
after DCAA had assigned employees to Garden City as a PDS, the Northeastern Region
Career Management Board met and officially recommended that Garden City be
established as a suboffice based on the current and projected workloads. They also
recommended assigning auditors to the suboffice already assigned to the Garden City
PDS. The Northeastern region submitted a request to DCAA headquarters for the official
suboffice name to be created on September 17, 2003.

The DCAA Organization Manual defined a suboffice as a satellite of its parent branch or
resident office, set up by the regional director, to perform contract audit services at a
smaller contractor location(s) with sufficient auditable contract work. The DCAA
Organization Manual provided criteria to use in naming a suboffice. Regional
management was required to tell DCAA headquarters the proposed suboffice name, the
effective date for the suboffice activation, and any other information that headquarters
requires to set the suboffice up in the DCAA Management Information System (DMIS).
Regional management also had to provide any information that headquarters needed
when headquarters was required to perform personnel or finance actions. A November
2004 revision to the DCAA Organization Manual gave examples of when a suboffice
could be established but assigned the actual responsibility for defining when a suboffice
could be established to the regions.

            Documentation Supporting Establishment of Suboffice. Neither DCAA
headquarters nor the Northeastern region required that specific documentation be
provided or maintained to support the establishment of a suboffice. Neither office could
provide requested supporting documentation, such as a cost-benefit analysis, to justify the
establishment of the Garden City suboffice. The NYBO did provide a listing of
contractors assigned to the Garden City suboffice; however, the contractors had New
York City addresses. The Northeastern region had assigned contractors with Garden City
addresses to the Long Island Branch Office. The Northeastern region should revisit the
alignment of the Garden City office and the assigned contractors and adequately
document the basis for the decision made.

Establishment of Local Commuting Area. Article 15.12.E of the Collective
Bargaining Agreement between the Northeastern region and the American Federation of
Government Employees Council of Defense Contract Audit Agency Locals, #163
(Union) defined the local commuting area for all Northeastern region audit offices as 22
miles from an employee’s PDS. The Northeastern region established the 22-mile radius
through collective bargaining and a formal survey. The Resources Manager,
2
  A non-mobile employee is expected to perform the majority of their work at the PDS, usually a contractor
site.


                                                   10
Northeastern region, explained that a 1991 survey of all DCAA Northeastern region
employees’ commuting distances from the employees’ residence to their PDS resulted in
22 miles as the average local commute. According to the DoD Civilian Personnel, Joint
Travel Regulations (JTR), Part H, “Local Travel In and Around Permanent or TDY
Location,” the local commuting area could be:

           •   the metropolitan area around the PDS that is ordinarily served by local
               common carriers;
           •   boundaries as determined by the official directing travel or as prescribed
               by a local Service/Defense Agency directive; or
           •   separate cities, towns, or installations next to or close to each other, within
               which the commuting public travels daily during normal business hours.

The Northeastern region approach appeared to be based on the second method. However,
Northeastern region management would only state that because they used collective
bargaining and a formal survey to establish the 22-mile radius, their method met the
additional criteria established by a Comptroller General case requiring that the distance
radius not be arbitrarily established. The Northeastern region management followed a
logical process to collect information to help it determine the local commuting area.
However, it analyzed and applied the information in a manner that, while not a clear
violation of the JTR, was inconsistent with its spirit and intent. The JTR prescribed that a
local commuting area be established for a particular installation or metropolitan area.
The Northeastern region covers eight states from Maine to New York and includes
Michigan. Therefore, the Northeastern region management should have evaluated each
major metropolitan area to determine a reasonable commuting radius based on the area
served by local common carriers or the area within which people commute daily. The
applicability of the 1991 survey results also was questionable because of the length of
time since the Northeastern region conducted it and the elimination and realignment of
offices. Northeastern region management needs to establish reasonable local commuting
areas specific to the major metropolitan locations where its offices are located.

        Local Travel Reimbursement. The allegation specified that Garden City
employees claimed and received local travel reimbursement to the NYBO and contractors
located in Manhattan rather than the commuter subsidy that would have been paid had the
employees been assigned to the NYBO. The allegation was substantiated. The
establishment of Garden City as a PDS directly impacted how the Northeastern region
reimbursed the assigned auditors’ local travel costs. The JTR provided that an agency
should reimburse local travel expenses for travel within the local commuting area of the
PDS. The Collective Bargaining Agreement required the Northeastern region to
reimburse employees for the full mileage between the employee’s residence and the
alternative duty point when the alternative duty point was outside the local commuting
area of the PDS. It does not specifically address reimbursement for use of public
transportation in these situations.

The NYBO was 27 miles from the Garden City office; therefore, the NYBO was outside
the 22-mile radius local commuting area. Accordingly, employees were able to claim


                                             11
local travel reimbursement for all mileage and any public transportation costs associated
with daily travel from their homes to the NYBO. If the Northeastern region had assigned
the employees to the NYBO and if they had otherwise met the eligibility requirements,
then they would have only received the commuter subsidy available under the DoD
Transportation Incentive Program for the commute to the NYBO. The Northeastern
region would have reimbursed any local travel costs from the NYBO to a contractor
separately.

       Actual Local Travel Reimbursement. In total, DCAA reimbursed seven
employees $6,400 in FY 2002, and nine employees $6,600 in FY 2003, for travel
between their homes and the NYBO in Manhattan, and to and from contractor locations.
The majority of Garden City office employees received local travel payments that
averaged from $17 to $50 per month, which is less than the commuter subsidy. Only one
employee’s $250 average monthly local travel expense was in excess of the $100
monthly commuter subsidy.

During FYs 2002 and 2003, the employee with the highest reimbursed local travel
expense held two different positions, a technical specialist and a temporary supervisory
auditor. As described in Allegation 2, the Regional Director approved the temporary
lateral reassignment of the employee to a temporary supervisory auditor position in
January 2002. The job announcement specified the duty station as New York City;
however, as a condition of accepting the reassignment, the employee requested that their
PDS remain Garden City. Because the Northeastern region assigned the temporary
supervisory auditor to the Garden City PDS, the Collective Bargaining Agreement 3
allowed them to claim local travel reimbursement for travel from their home to the
NYBO. The travel claims included mileage and public transportation costs. While
assigned as a temporary supervisory auditor in CY 2002, they claimed $2,427, double the
yearly commuter subsidy of $1,200.

The RAM acted within their authority when they decided to allow the employee to retain
Garden City as their PDS; however, the RAM never documented their decision
explaining why spending the extra travel funds was reasonable or necessary. Without
such documentation, the Northeastern region has limited its ability to later review the
RAM decision or to respond to grievances from other employees desiring the same or
similar accommodation.

        Travel on Government Time. The allegation implied that establishment of the
Garden City work site allowed the employees to perform more travel on Government
time than if Northeastern region management had assigned them to the NYBO. We
could not determine whether Garden City employees’ travel time was excessive because,
in accordance with the Collective Bargaining Agreement, the auditors charged travel time
to the audit assignment and that time could not be segregated from the total audit
assignment hours. The Collective Bargaining Agreement specified that for local travel

3
 The Northeastern region management has decided to make certain provisions of the Collective Bargaining
Agreement applicable to all employees.


                                                  12
and as much as practical, Northeastern region management will not require employees to
travel on their own time in excess of their normal commuting time.

Conclusion: The allegation was partially substantiated. DCAA did not have any
policies or procedures that specified the criteria for establishing each type of PDS.
Current DCAA policies and procedures also do not require management to document the
reasons, including any cost/benefit analysis, for establishing a PDS at a specific facility.
DCAA also does not have policies or procedures specifying criteria for management to
determine when to assign an employee to a particular PDS. When regional management
establishes a PDS and assigns employees to it, the costs to the region involve far more
than the annual office space rent; therefore, DCAA should have guidance to assist
managers in making the decisions.

Recommendations, Management Comments, and DoDIG Response

Recommendations:

       3. A. We recommend that the Director, Defense Contract Audit Agency,
       establish policies and procedures:
            1. Specifying the criteria and documentation required to establish each
       type of permanent duty station, and
            2. Governing the assignment of employees to a specific permanent duty
       station, including the criteria to consider and appropriate documentation
       requirements for unusual situations.

DCAA Headquarters Comments: DCAA partially concurred with recommendation
3.A.1 and nonconcurred with recommendation 3.A.2. DCAA does not believe that the
report identified the need for additional policies and procedures and the Northeastern
region management articulated a sound business position and exercised its authority in
carrying out its mission. They did agree to add additional language to the DCAA
Organization Manual to clearly state that a PDS should be established based on mission
requirements.

DoDIG Response: We request that DCAA reconsider its position on both
recommendations. DCAA quoted a draft report conclusion out of context to support its
position that the need for additional policies and procedures was not identified in the draft
report. Therefore, we have added a sentence to the section entitled, “Comparison of
Lease Costs for Two Options,” (page 8) to clarify that we could not determine whether
the decision made at the time was appropriate because the Northeastern region
management did not properly document its decision. We expended considerable time
gathering information that was only available verbally from some DCAA management
officials. In this situation, documents written at the time the decision was being made
would have been a better evidentiary source for our review. We did not conclude that the
Northeastern region management acted outside of its authority; however, we cannot
conclusively determine that they made the best decisions.



                                             13
DCAA should require its managers to document their decisions especially when
Government funds are being expended. The Northeastern region management decision to
establish the Garden City PDS affected the morale, the efficiency, and the effectivenss of
auditors working out of the New York area offices. These decisions involved
Government resources, specifically funds and personnel. Government managers are
required to safeguard Government resources (funds, property, and other assets) against
waste, loss, unauthorized use, or misappropriation as part of the overall requirement of
internal control. The Office of Management and Budget has re-emphasized
management’s responsibilities for internal control as required by the Federal Manager’s
Financial Integrity Act of 1982 by revising its Circular A-123, “Management’s
Responsibility for Internal Control,” dated December 21, 2004. Without proper
documentation, DCAA management cannot ensure that its managers are safeguarding the
assets assigned to them. In addition, DCAA would expect a contractor to have written
documentation to support a decision to lease office space. Therefore, DCAA should
revise its existing policies and procedures to require its managers to properly document
decisions supporting the establishment of a PDS and assignment of personnel to it.

       3. B. We recommend that the Director, Northeastern Region, Defense
       Contract Audit Agency:
            1. Re-evaluate the assignment of contractors to the Garden City
       suboffice and document the considerations for its continued existence, and
            2. Establish separate local commuting areas for the various major
       geographic locations in the region containing audit offices.

DCAA Northeastern Region Comments: The Regional Director, Northeastern Region,
DCAA, partially concurred with both recommendations. For recommendation 3.B.1,
DCAA believes that our report is sufficient documentation and support for its decision to
establish the Garden City PDS, therefore, additional documentation would not be value-
added. DCAA has agreed to review the workload assigned to the Garden City suboffice.
For recommendation 3.B.2, DCAA disagreed that they applied the information gathered
on the local commuting area arbitrarily and in a subjective manner; however, they have
agreed to attempt to renegotiate the local commuting areas with the Union when the
existing collective bargaining agreement expires in June 2007.

DoDIG Response: We accept the DCAA proposed actions as meeting the intent of the
recommendations. We have revised the report section, “Establishment of Local
Commuting Area,” (page 10) to incorporate legal advice recently received from our
Office of General Counsel that characterized the DCAA use of its local commuting area
survey information as not meeting the spirit and intent of the JTR.

Allegation 4: A DCAA supervisory auditor inappropriately charged time and
attendance hours on timesheets. The allegation was not substantiated.

Time Charging Pattern. The supervisory auditor alternately worked credit hours and
took credit hours during most pay periods in FY 2002. The DCAA Personnel
Management Manual and the Collective Bargaining Agreement allowed employees to


                                           14
work credit hours and accumulate and carry over up to 24 hours from one pay period to
the next. An employee could use credit hours to fill the basic work requirement of 80
hours in a pay period. Therefore, the accrual and use of credit hours by the technical
specialist/supervisory auditor was in accordance with the DCAA Personnel Management
Manual and the Collective Bargaining Agreement.

Time Charged to Indirect Travel Code. The complainant alleged that a supervisory
auditor inappropriately charged time to a travel time code. The allegation was not
substantiated. During FY 2002, the technical specialist/supervisory auditor charged only
4 hours to the travel time code. The individual charged the time while working as a
technical specialist prior to the assignment as a supervisory auditor. The Collective
Bargaining Agreement directed auditors, which includes technical specialists, to charge
travel time to audit assignments; however, auditors were to charge the time to perform
certain general functions such as the completion of travel vouchers, to an indirect time
code. Therefore, the individual properly charged the 4 hours of travel time in compliance
with the Collective Bargaining Agreement.

Overtime. The allegation stated that a supervisory auditor received overtime pay for
work performed for another branch office. The allegation was not substantiated. The
individual’s FY 2002 timesheets and a summary DMIS report on overtime and
compensatory time earned during FYs 2002 and 2003 showed that the individual did not
claim or earn overtime or compensatory time during the time periods.

Conclusion: The allegation was not substantiated. The supervisory auditor did not
improperly charge travel time on their timesheets in FY 2002. The same individual did
not charge overtime hours during FYs 2002 or 2003.




                                           15
Appendix A. Scope and Methodology
        We evaluated records maintained by headquarters, DCAA, the Northeastern
region, and the Defense Finance and Accounting Service to determine the validity of the
allegations. We also interviewed DCAA managers and employees at headquarters,
DCAA, the Northeastern region, and the NYBO. Specifically, we

           •   determined the applicable accounting standards, public laws, DoD and
               DCAA regulations, directives, and instructions;

           •   reviewed the World Trade Center assignment working paper files
               (Assignment No. 2211-2002T17900001), both electronic and hard copy
               files;

           •   reviewed the selection process and applicable files for the NYBO
               supervisory auditor and technical specialist positions;

           •   obtained official supporting documentation from personnel files
               maintained by Defense Finance and Accounting Service;

           •   reviewed documentation maintained by the Northeastern region in
               support of management decisions regarding the Garden City suboffice;

           •   reviewed time charging information obtained from the DMIS; and

           •   reviewed local travel reimbursement claims for NYBO employees
               assigned to the Garden City location.

We performed the review from November 2003 through February 2006.




                                           16
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer


Other Defense Organizations
Director, Defense Contract Audit Agency
  Regional Director, Northeastern Region

Congressional Committees and Subcommittees, Chairman and Ranking
  Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                           17
Defense Contract Audit Agency Comments




                    19
20
     Final Report
      Reference




     Added
     page-8




21
22
     Final Report
      Reference




     Pages 8
     Added




23
Final Report
 Reference




Revised




               24
